                         CLOSEOUT FOR CASE M-00090035
The complainant1alleged that the subject's2 proposal3 to the NSF Small Business Innovation
Research (SBIR) program significantly overlapped with a proposal that the subject submitted
to another agency.4 The subject submitted the NSF proposal 2 months after the submission
of the proposal to the other agency, and, under the section "Equivalent or Overlapping
Proposals to other Federal Agencies," stated that his organization had no similar proposals
outstanding or awards pending.

We interviewed the subject, who asserted that the two proposals were significantly different,
specifically in the different experiments. He said that the experiments in the NSF proposal
were more difficult and might not work as expected. However, the subject admitted that the
NSF proposal did not address the details associated with these differences.

We asked an NSF program officer: an expert in the field, to compare the NSF proposal, the
other agency funded proposal, the interim progress report for the other agency award, and the
subject's interview statement. The program officer concluded that the two proposals were
"very similar in organization, content, and task descriptions. Tables, figures, and narrative
are exactly the same" with the exception of three listed areas. The program officer said that
the differences in the NSF proposal were consistent with the subject's explanation, and that if
the subject had included the more complete description in the NSF proposal that he described
in his statement, it would have shown the differences between the two proposals.

We concluded that the subject was careless in the preparation of the NSF proposal, both in
failing to disclose the existence of the similar proposal to the other agency and in failing to
adequately describe the proposed research. However, the subject's conduct does not warrant
further action by NSF.

This case is closed.

cc: Investigation, IG.




                              -
                              of this proposal, was a(l




                                          Page 1 of 1                                 M 00-35
